U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




NATIONAL TELECOMMUNICATIONS
                         AND
  INFORMATION ADMINISTRATION

                               Financial Statements
                                   Fiscal Year 1997


           Audit Report No. FSC-9866-8-0001/March 1998




                              PUBLIC
                              RELEASE



      Office of Audits, Financial Statements Audit Division
March 19, 1998


MEMORANDUM FOR:               Larry Irving
                              Assistant Secretary for Communications
                               and Information



FROM:                         Johnnie E. Frazier
                              Acting Inspector General

SUBJECT:                      Audit of NTIA's FY 1997 Financial Statements
                              Audit Report No. FSC-9866-8-0001

The attached report presents the results of the audit of the National Telecommunications and
Information Administration's (NTIA) Combined Statements of Financial Position as of September
30, 1997, and 1996, and the related Combined Statements of Operations and Changes in Net
Position for the years then ended. Also provided are reports on NTIA's internal controls and
compliance with laws and regulations, including management’s comments. The accompanying
overview and financial statements were prepared by NTIA.

In accordance with the Chief Financial Officers Act of 1990, as amended by the Government
Management Reform Act of 1994, an audited consolidated financial statement must be prepared
covering all accounts and associated activities of each office, bureau, and activity of the
Department. To facilitate the consolidated audit process, the independent certified public
accounting firm of KPMG Peat Marwick LLP (KPMG) was contracted to audit NTIA’s FY 1997
financial statements. The Office of Inspector General defined the audit scope, oversaw the
process of selecting the contractor, and oversaw the performance and delivery of the audit.

In the opinion of KPMG, the financial statements present fairly, in all material respects, the
financial position of NTIA as of September 30, 1997, and 1996, and the results of its operations
and changes in net position for the years then ended, in conformity with the hierarchy of
accounting principles and standards approved by the principals of the Federal Accounting
Standards Advisory Board. This is a comprehensive basis of accounting other than generally
accepted accounting principles.

Financial statements audits are a key gauge for measuring the progress of a bureau in meeting the
goals and objectives of the CFO Act. The KPMG report on internal controls identified no
material weaknesses or reportable conditions. The results of the audit clearly indicate that NTIA
has made significant improvements in its financial and accounting practices over the past years.
Our office reviewed a draft version of NTIA’s overview to its FY 1997 financial statements. The
overview provides the linkage between the financial statements and the Government Performance
and Results Act of 1993, the legislation that requires government entities to collect and report
information on their performance in meeting goals and objectives. We shared our observations
and recommendations in a January 9, 1998, discussion paper and a subsequent meeting with
NTIA management. NTIA was responsive to our comments, making some changes to the FY
1997 overview, while stating efforts will be made to strengthen FY 1998 and subsequent
overviews.

The overview and supplemental financial and management information: (1) details how NTIA
supports the three themes contained in the Department’s Strategic Plan, including identifying
planned performance measures; (2) lists many FY 1997 accomplishments by activity; and
(3) includes some discussion on financial position and results. However, NTIA should improve
its discussion of results by strengthening reported performance measurement data (e.g., increased
outcome and cost-effectiveness measures) and improving the presentation of information to
facilitate trend analyses and assessment of whether target levels of performance have been
achieved.

In order to improve the usefulness of the overview to decision-makers, such as OMB and the
Congress, we encourage NTIA to address the observations contained in our discussion paper.
Also, continued improvement will be needed for the overview to be consistent with OMB Bulletin
97-01, Form and Content of Agency Financial Statements, to “provide a clear and concise
description of the reporting entity and its mission, activities, program and financial results, and
financial condition.” The OIG realizes that improving the overview is an iterative process and
encourages TA to strengthen next year’s discussion of the bureau’s results.

We recognize NTIA’s commitment to preparing high quality and meaningful financial statements.
To continue meeting this objective, it will be necessary that the accounting requirements set forth
in OMB Bulletin 97-01 are taken into consideration during preparation of the FY 1998 financial
statements. Implementation of OMB Bulletin 97-01 poses tremendous challenges for various
reasons. In particular, this bulletin requires six statements to be prepared as compared to OMB
Bulletin 94-01, which required two. One of the six statements, the Statement of Net Cost,
requires NTIA to report its costs by sub-organizations and programs, which should be based on
the mission and outputs described in NTIA’s strategic and annual plans, its budget structure, and
the Statement of Federal Financial Accounting Standards No. 4, Managerial Cost Accounting
Standards. As the federal government has not been required previously to report information in
such a manner for financial or budgetary purposes, NTIA will need to place appropriate emphasis
on implementation of OMB Bulletin 97-01.

If you wish to discuss the contents of this report, please contact George E. Ross, Assistant
Inspector General for Auditing, at (202) 482-1934, or Thomas McCaughey, Director, Financial
Statements Contract Audits Division, at (703) 603-0301. We appreciate the cooperation and
courtesies extended by NTIA during the audit.



                                                 2
cc:   W. Scott Gould
      Chief Financial Officer and
       Assistant Secretary for Administration

      Gay Shrum
      Chief, Budget Division, NTIA

      John McGuffin
      Comptroller, NIST




                                                3
To obtain a copy of this financial statements report,
please contact the OIG Publications Unit using any of
the following means:

Mail:        OIG Publications Unit
             Mail Stop H7099-C
             14th Street & Constitution Avenue, N.W.
             Washington, D.C. 20230

E-Mail:      oigreports@doc.gov

Telephone:   202-482-0231

FAX:         202-482-4266


For a complete listing of all OIG publicly released
reports, visit the OIG Internet Web Site.




             http://www.oig.doc.gov
